TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Individual Income Tax Return
                      Information Was Successfully Posted
                           to the Latest Release of the
                         Customer Account Data Engine


                                         August 29, 2006

                              Reference Number: 2006-40-134




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 29, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       (for) Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Individual Income Tax Return Information Was
                             Successfully Posted to the Latest Release of the Customer Account
                             Data Engine (Audit # 200640018)

 This report presents the results of our review to determine whether tax return information was
 accurately and timely posted to taxpayers’ accounts on the Internal Revenue Service (IRS)
 Customer Account Data Engine (CADE). We also determined whether related refunds were
 accurately and timely issued and whether two important changes to CADE processing since our
 last review – accepting address changes and two additional tax return forms – were functioning
 properly.

 Synopsis
 The CADE consists of current and planned databases and related applications that will
 eventually replace the IRS Master File system, which is the official IRS database that stores
 various types of taxpayer account information. The CADE is a critical building block in the
 IRS’ modernization program that will enable the development of subsequent modernized
 systems to improve customer service and compliance. The CADE is designed to post
 information to taxpayers’ accounts on a daily rather than weekly basis, which will facilitate
 faster refunds to taxpayers and allow IRS employees to provide improved service to taxpayers by
 having up-to-date, accurate account information available.
 The CADE is being implemented in a series of releases over several years. The first CADE
 release, Release 1.1, began posting the simplest individual tax return information in July 2004.
 This first release of the CADE posted only information from an Income Tax Return for Single
 and Joint Filers With No Dependents (Form 1040EZ). Several CADE releases with incremental
 changes have been implemented since then. The current release, 1.3.2, was in place for the
                                   Individual Income Tax Return Information
                                 Was Successfully Posted to the Latest Release
                                     of the Customer Account Data Engine


2006 Filing Season1 and was the subject of this review. Release 1.3.2 expanded CADE
functionality to post information from a U.S. Individual Income Tax Return (Forms 1040 and
1040A) in addition to Forms 1040EZ. This CADE release was also able to post address changes
from the incoming returns.
From January through April 2006, the IRS successfully posted 7 million tax returns to taxpayers’
CADE accounts, generating $3.3 billion in refunds. With the exception of one problem area, tax
information was accurately and timely posted to taxpayers’ CADE accounts, and refunds were
accurately and timely issued.
We did find that some long addresses were cut off by the CADE, resulting in an incorrect
address on IRS records for those taxpayers. This caused some refunds to be returned as
undeliverable by the United States Postal Service. IRS records
need to accurately reflect taxpayers’ addresses to ensure that        A program error caused
refunds and notices to taxpayers are mailed to the correct          4,100 taxpayers’ addresses
addresses. We advised IRS management of this issue during           to be incorrect, resulting in
our review, and they took immediate action to correct CADE          51 refunds for over $27,000
                                                                        being undeliverable.
programming and to identify and correct affected accounts. The
IRS identified approximately 4,100 taxpayer addresses that
were incorrect, and we determined that 51 of these taxpayers had refunds totaling $27,643
returned as undeliverable.
While the IRS successfully posted taxpayer information to the CADE, the CADE is still very
limited in its capabilities. Many challenges remain as the IRS expands the CADE to handle
more complex tax returns and issues. Although Release 1.3.2 accepted the principal individual
income tax return forms, there were still many additional restrictions. For perspective, the
7 million returns posted to the CADE from January through April 2006 represented
approximately 7 percent of the total individual income tax returns processed during this period.

Recommendations
We made no recommendations in this report because IRS management took appropriate
corrective action to our finding during the course of the audit.




1
    The period from January through mid-April when most individual income tax returns are filed.


                                                                                                    2
                           Individual Income Tax Return Information
                         Was Successfully Posted to the Latest Release
                             of the Customer Account Data Engine



Response
In an email to us, IRS management concurred with the contents of an advance copy of the draft
report. Because the IRS concurred and the report had no recommendations, the IRS was not
required to and did not provide a formal response.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                3
                                      Individual Income Tax Return Information
                                    Was Successfully Posted to the Latest Release
                                        of the Customer Account Data Engine




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Tax Return Information Was Posted Timely, and Tax
          and Refund Amounts Were Accurate ...........................................................Page 3
          A Program Error Caused Some Taxpayers’ Addresses
          to Be Incorrect...............................................................................................Page 3
          There Are Many Challenges Ahead As Capabilities Are
          Expanded to Handle More Complex Tax Returns .......................................Page 4

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Outcome Measures...............................................................Page 10
          Appendix V – Customer Account Data Engine Deployment .......................Page 11
         Individual Income Tax Return Information
       Was Successfully Posted to the Latest Release
           of the Customer Account Data Engine




              Abbreviations

CADE       Customer Account Data Engine
IDRS       Integrated Data Retrieval System
IRS        Internal Revenue Service
                                 Individual Income Tax Return Information
                               Was Successfully Posted to the Latest Release
                                   of the Customer Account Data Engine




                                             Background

The Customer Account Data Engine (CADE) is the foundation for managing taxpayer accounts
in the Internal Revenue Services’ (IRS) modernization plan. The CADE consists of current and
planned databases and related applications that will eventually replace the IRS Master File
system.1 When fully operational, the CADE will house tax information for more than
200 million individual and business taxpayers.
Tax returns, both paper and electronic, are received by the IRS at various Submission Processing
sites across the country. At these sites, the return information is input to the IRS’ return
processing computer system. The processing system validates certain taxpayer identifying
information and checks the returns for mathematical errors. After the return information has
been validated and errors have been corrected, the sites send the information to the IRS
Computing Centers2 to be posted to the taxpayers’ accounts. In the past, this account
information was all posted to the Master File database, the official repository for all tax accounts.
It is this database that the CADE is gradually replacing.
The age and complexity of the Master File system causes delays and inaccuracies in providing
service to taxpayers. Updates to taxpayers’ account information on the Master File3 occur on a
weekly basis, and some updates require multiple weeks to complete. Because current data are
not available to IRS employees, taxpayers may be given outdated information about their
accounts. In contrast, the CADE is designed to post information to taxpayers’ accounts on a
daily rather than weekly basis. Taxpayers should receive refunds faster, and IRS employees
should be able to provide improved service to taxpayers by having up-to-date, accurate account
information available.
The first phase of the CADE, for individual taxpayer accounts, is being implemented in a series
of releases over several years. The simplest taxpayer accounts are being moved to the CADE
first. Each successive release moves a more complex segment of taxpayer accounts. The first
CADE release, Release 1.1, began posting the simplest individual tax return information from
Income Tax Return for Single and Joint Filers With No Dependents (Forms 1040EZ) during
July 2004. Release 1.3.2 began posting tax return information in January 2006, and was the
subject of this review. Release 1.3.2 posted information from U.S. Individual Income Tax
Return (Forms 1040 and 1040A), in addition to Forms 1040EZ that were included in earlier


1
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
2
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
3
  For example, posting return information and payments.
                                                                                                            Page 1
                                   Individual Income Tax Return Information
                                 Was Successfully Posted to the Latest Release
                                     of the Customer Account Data Engine



releases, and also posted address changes from the tax returns. However, Release 1.3.2 is still
very limited, posting only returns with a filing status of single, no dependents, a refund or even
balance, no mathematical errors on the return, and no schedules.
To prepare for the 2006 Filing Season,4 the IRS moved eligible individual taxpayers’ accounts
from the Master File to the CADE, resulting in a total of 13.5 million accounts on the CADE as
of January 2006. Based on previous tax year information, the IRS moved accounts likely to have
returns filed that would meet CADE posting criteria. When a tax return that did not meet the
criteria was filed for a CADE account, the account was moved back to the Master File and the
return information posted there. Actions subsequent to tax return posting that could not be
handled by the CADE, such as payments, address changes (from other than incoming tax
returns), or amended returns, also caused accounts to be moved back to the Master File.
This review was performed at the CADE Project Office in New Carrollton, Maryland, and at the
Fresno, California, Submission Processing Site during the period March through June 2006. The
audit was conducted in accordance with Government Auditing Standards. Detailed information
on our audit objectives, scope, and methodology is presented in Appendix I. Major contributors
to the report are listed in Appendix II.




4
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                   Page 2
                                Individual Income Tax Return Information
                              Was Successfully Posted to the Latest Release
                                  of the Customer Account Data Engine




                                     Results of Review

Tax Return Information Was Posted Timely, and Tax and Refund
Amounts Were Accurate
From January through April 2006, the IRS successfully posted 7 million tax returns to taxpayers’
CADE accounts, generating $3.3 billion in refunds. Tax
return information was timely posted to CADE accounts, and      The IRS successfully posted
refunds were timely issued. The CADE accepted all three           7 million tax returns to the
types of returns (Forms 1040, 1040A, and 1040EZ) for            CADE, generating $3.3 billion
posting. The CADE also accepted returns with address                      in refunds.
changes and posted these changes to taxpayers’ accounts.
We reviewed a sample of 720 returns posted to the CADE during 2 weeks of the 2006 Filing
Season to determine whether tax return information was accurately and timely posted and
whether refunds were accurately and timely issued. This sample included each of the three types
of returns that were posting to the CADE. The sample also included 118 returns with address
changes. The dollar amounts of the items that we verified on the returns, such as tax and refund
amounts,5 were posted accurately to taxpayers’ accounts.

A Program Error Caused Some Taxpayers’ Addresses to Be Incorrect
Some taxpayers’ addresses were incorrect on IRS records because long street addresses were cut
off by the CADE. IRS records have a limited length for storing a taxpayer’s street address.
When a street address exceeded this limit, the CADE incorrectly cut off the part of the address
over the limit.
As tax return information is input to IRS computer systems during return processing, the street
address is restricted to the length allowed in IRS records. Preparers of electronic returns have
only this space to enter the street address. For paper returns, if the street address exceeds this
space, IRS employees will shorten the address to fit the space. Employees will use abbreviations
or other methods to shorten the address without affecting the accuracy of the address.
However, before posting tax returns with new addresses to taxpayers’ accounts, the IRS uses a
computer program with United States Postal Service data to refine the addresses. In some
instances, this computer program expands the street address and causes it to exceed the IRS’


5
 The return amounts verified were adjusted gross income, taxable income, tax, withholding, earned income tax
credit, and refund.
                                                                                                         Page 3
                                   Individual Income Tax Return Information
                                 Was Successfully Posted to the Latest Release
                                     of the Customer Account Data Engine



space limit.6 When street addresses exceeding this space limit were posted to taxpayers’ CADE
accounts, the address used for IRS records did not include the ending characters. The existing
Master File, which the CADE is supposed to replace, was programmed to use the shorter return
processing address in this situation; however, the CADE was not. In addition, the CADE
programming had one less character space available for the street address than the Master File,
which caused some addresses to be cut off even if they were not expanded by the address
computer program.
Because addresses for some accounts handled by the CADE were cut off, IRS records showed an
incorrect address for some taxpayers. IRS records need to accurately reflect taxpayers’ addresses
to ensure that refunds and notices to taxpayers are mailed to the correct addresses.
Management Action: We advised the IRS of this condition during our review, and
management took immediate action to correct the programming and affected accounts. IRS
management informed us that CADE programming was corrected to prevent this address
problem in the future. The IRS identified approximately 4,100 taxpayer accounts with incorrect
addresses caused by this condition. We determined that 51 of these taxpayer accounts had
refunds totaling $27,643 that were returned to the IRS as undeliverable by the United States
Postal Service.

There Are Many Challenges Ahead As Capabilities Are Expanded to
Handle More Complex Tax Returns
The IRS is making incremental progress in adding capabilities to the CADE. The IRS plans to
continually increase these capabilities by increasing the number of accounts added to and
retained by the CADE and by expanding the types of returns and issues the CADE can handle.
This will allow the IRS to provide better service to more taxpayers. The IRS has expanded the
scope of the current CADE release to include two additional individual income tax return forms
(Form 1040 and Form 1040A) and to accept address changes on tax returns. This expansion
increased the number of accounts that were eligible to be moved to the CADE.
The IRS substantially increased the number of tax returns posted to the CADE with
Release 1.3.2. From January through April 2005, there were 1.3 million returns posted to the
CADE; this increased to 7 million in 2006. However, for perspective, a total of 107 million
returns were posted during this same period in 2006. While there has been a marked increase in
returns posted to the CADE, the vast majority of tax returns still are posted to the Master File
(see Figure 1).




6
    For example, the abbreviation “lndg” was expanded to “landing.”
                                                                                          Page 4
                                   Individual Income Tax Return Information
                                 Was Successfully Posted to the Latest Release
                                     of the Customer Account Data Engine



                Figure 1: Master File and CADE Return Posting Comparison
                                  January Through April



                                                                                  Master File
                                                                                  CADE

                   99%                                              93%      7%
                                    1%




                      2005                                            2006
         Source: IRS statistics for total individual tax returns.

There are still many challenges ahead as the IRS expands the CADE capabilities to handle more
complex tax returns. The current capabilities are still very limited. For example, Release 1.3.2
posted information only for tax returns with a filing status of single, no dependents, a refund or
even balance, no schedules, and no mathematical errors identified during processing. In
addition, actions subsequent to tax return posting, such as payments, address changes, or
amended returns, caused accounts to be removed from the CADE and returned to the Master
File. Of the 13.5 million taxpayer accounts on the CADE in January 2006, approximately
5.2 million (38.5 percent) were moved back to the Master File through April 2006, either
because the tax returns could not be posted to the CADE, or there was subsequent activity on the
account that the CADE could not process.
For the 2007 Filing Season, the IRS plans to significantly expand the scope of the CADE to
include tax returns with most filing statuses, limited dependent exemptions, and various
schedules for Forms 1040 and 1040A.7 Based on this expanded scope, the IRS again expects a
considerable increase in the number of tax returns that will post to the CADE during the 2007
Filing Season. However, because recent changes to tax laws and other issues could impact the
expansion of the scope of CADE, no firm volume projections were available at the time of our
review.




7
    See Appendix V.
                                                                                                Page 5
                                 Individual Income Tax Return Information
                               Was Successfully Posted to the Latest Release
                                   of the Customer Account Data Engine



                                                                                                 Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objective of this review was to determine whether tax return information was
accurately and timely posted to taxpayers’ accounts on the CADE. We also determined whether
related refunds were accurately and timely issued and whether two important changes to CADE
processing since our last review – accepting address changes and two additional tax return forms
– were functioning properly. To accomplish our objectives, we:
I.      Determined whether tax return information was accurately and timely posted to the
        CADE.
        A. Obtained computer extracts of all returns processed by the Austin and Fresno
           Submission Processing Sites and posted to the CADE during the weeks ending
           March 3 and March 17, 2006.
        B. Selected random samples of paper and electronically filed tax returns from the returns
           extracted in Step I.A. We selected 90 returns of each type, for each week, from each
           Submission Processing site for a total of 720 returns – 360 paper returns and
           360 electronically filed returns. This sampling method was sufficient for our test
           purposes, and we did not plan to project the results to the population. For paper tax
           returns, we obtained the actual tax returns; for electronically filed tax returns, we
           obtained a data extract of the return information.
        C. Researched the returns in Step I.B. on the IDRS1 and compared the IRS account
           information with the information on the tax returns to determine whether the returns
           were accurately posted. The return information verified was: name, address,
           adjusted gross income, taxable income, tax, withholding, earned income tax credit,
           and refund.
        D. Researched the returns in Step I.B. on the IDRS to determine the number of days
           from the date the tax return information was sent to the Computing Centers2 to the
           date it was posted to the CADE. We compared this to the expected time periods to
           determine if the tax returns were posted timely.




1
  The IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
2
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                          Page 6
                           Individual Income Tax Return Information
                         Was Successfully Posted to the Latest Release
                             of the Customer Account Data Engine



       E. Determined whether the data extracted in Steps I.A. and I.B. were valid. We used
          IRS production reports to verify that the population of returns from our computer
          extracts matched the number of returns processed. We performed a computer
          analysis of the data to determine if the data were valid. We researched selected
          extract records on the IDRS to verify that the extract data matched the data on the
          IDRS.
II.    Determined whether refunds were timely issued for CADE accounts.
       A. Researched the returns in Step I.B. on the IDRS to determine the dates they were
          posted. From this, we determined the expected refund dates based on standard CADE
          time frames for both direct deposit and paper check refunds.
       B. Obtained an extract from the CADE of actual refund issuance dates provided to the
          IRS by the Department of the Treasury Financial Management Service, which issues
          all tax refunds. Compared the expected refund date determined in Step II.A. to the
          actual refund date from the Financial Management Service.
III.   Determined whether the additional functionality added to CADE Release 1.3.2 was
       operating as intended.
       A. Determined whether the CADE was accepting address changes on returns. During
          the evaluation of the accuracy of the sample returns in Step I.C., we identified
          accounts with address changes on the return. The accuracy of the address posting
          was evaluated along with the accuracy of other return items as part of Step I.C.
       B. After identifying a problem with how the CADE handles long street addresses, we
          obtained data files from the IRS of the 1,934 accounts that had incorrect addresses
          and had been moved from the CADE to the Master File. Accounts with an
          undelivered refund would have been moved back to the Master File. We researched
          all these accounts to determine the number and dollar amount of undelivered refunds.
       C. Determined whether the CADE was accepting all the intended individual income tax
          return form types. We evaluated the sample returns selected in Step I.B. to determine
          whether the three types of tax returns – Forms 1040, 1040A, and 1040EZ – were
          included.
IV.    Obtained information on the expected additions to CADE functionality for upcoming
       releases and on the volumes of tax returns processed, posted to the CADE, and returned
       to the Master File from the CADE.




                                                                                          Page 7
                          Individual Income Tax Return Information
                        Was Successfully Posted to the Latest Release
                            of the Customer Account Data Engine



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Richard J. Calderon, Audit Manager
Steven Stephens, Lead Auditor
Carola Gaylord, Senior Auditor
Bonnie Shanks, Auditor
Arlene Feskanich, Information Technology Specialist




                                                                                    Page 8
                        Individual Income Tax Return Information
                      Was Successfully Posted to the Latest Release
                          of the Customer Account Data Engine



                                                                     Appendix III

                       Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Information Officer OS:CIO
Deputy Chief Information Officer OS:CIO
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Senior Operations Advisor, Wage and Investment Division SE:W:S
       Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL




                                                                             Page 9
                            Individual Income Tax Return Information
                          Was Successfully Posted to the Latest Release
                              of the Customer Account Data Engine



                                                                               Appendix IV

                              Outcome Measures

This appendix presents detailed information on the measurable impact that our findings will have
on tax administration. These benefits will be incorporated into our Semiannual Report to
Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; approximately 4,100 taxpayer accounts had an incorrect
    address caused by the CADE (see page 3).

Methodology Used to Measure the Reported Benefit:
IRS management identified the accounts with an incorrect address and provided this information
to us. As part of the corrective action taken during our review, the contractors for the CADE
performed computer analyses of CADE data. To identify the addresses that had been incorrectly
shortened, the contractors used the individual address elements to identify taxpayer addresses
with a length in excess of that allowed in the combined address field.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; 51 undelivered refunds totaling $27,643 for the
    accounts with incorrect addresses caused by the CADE (see page 3).

Methodology Used to Measure the Reported Benefit:
The IRS provided us with the identity of approximately 1,900 accounts with an incorrect address
and a potential undelivered refund. If an account had an undelivered refund, it would be moved
from the CADE back to the Master File. Therefore, the accounts with incorrect addresses that
were moved back to the Master File potentially had an undelivered refund. We researched these
accounts on IRS records and determined the number and amount of undelivered refunds.




                                                                                        Page 10
                              Individual Income Tax Return Information
                            Was Successfully Posted to the Latest Release
                                of the Customer Account Data Engine



                                                                                         Appendix V

                     Customer Account Data Engine
                             Deployment

                                                                                          Expected
  Deployment            Filing Status               Return Types Added                    Volumes

 January 2005      Single                    Forms 1040EZ                                1.3 Million
                                                                                           (actual)
                   No Dependents             Refund or Even Balance

 January 2006      Single                    Forms 1040 & 1040A With No                   7 Million
                                             Schedules                                     (actual)
                   No Dependents
                                             Address Changes
 January 2007      Single                    Forms 1040 and 1040A With                     To Be
  (projected)                                Various Schedules                           Determined
                   Married Filing
                   Jointly
                   Married Filing
                   Separately
                   Head of Household
                   Limited Dependents
Source: Condensed from the IRS CADE Master Plan, dated October 18, 2005, and updated through discussions
with the IRS.




                                                                                                  Page 11
